Department   of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




  HOSPICE AND NURSING HOME 

  CONTRACTUAL  RELATIONSHIPS 





                    JUNE GIBBS BROWN
                    Inspector General

                       NOVEMBER       1997
                        OEI-05-95-00251
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-
452, is to protect the integrity of the Department   of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management         problems and recommends     legislative, regulatory, and
operational   approaches   to correct them.




                        Office of Evaluationand Inspections

The Office of Evaluation and Inspections (OEI) is one of several          components     of the 

Office of Inspector General.     It conducts short-term management        and program 

evaluations (called inspections) that focus on issues of concern to       the Department,      the 

Congress, and the public. The inspection reports provide findings          and 

recommendations     on the efficiency, vulnerability, and effectiveness     of departmental 

programs. 


OEI’s Chicago Regional Office prepared this report under the direction of William C. 

Moran, Regional Inspector General, and Natalie Coen, Deputy Regional Inspector 

General.  Principal OEI staff included: 


REGION                                                HEADQUARTERS
Thomas Komaniecki                                     Stuart Wright
John Traczyk                                          Lisa Foley
Magarita Rodriguez


To obtain a copy of this report,   call the Chicago   Regional   Office at (312) 353-4124.
Department   of Health and Human Services
             ---TPE 1-u
             Ul?‘l!
                               nl-7
                               VI

   INSPECTOR                GENERAL 





  HOSPICE  AND NURSING    HOME
  CONTRACTUAL   RELATIONSHIPS




                          JUNE GIBBS BROWN
                          Inspector General

                            NOVEMBER       1997
                             OEI-05-95-0025 1
              EXECUTIVE                              SUMMARY

PURPOSE

To examine   the contractual   relationships   between   hospices   and nursing   homes.

BACKGROUND

Hospice care is an approach to treatment that recognizes that the impending death of
an individual may warrant a change in focus from curative to palliative care. Hospice
helps patients face death while minimizing pain and disruption of normal activities.
The Medicare hospice benefit was established in 1983. In 1986, Congress allowed
States to add a hospice benefit to their State Medicaid plans.

For nursing home patients who are dually entitled to Medicare and Medicaid and who
choose the hospice benefit, Medicaid pays the hospice for the patient’s room and
board, (no less than 95 percent of the Medicaid daily rate), and Medicare pays the
hospice for the hospice benefit. The hospice then pays the nursing home for daily
care, and, depending on the arrangement   made between the hospice and the nursing
home, for other services as well.

Based on evaluations, audits, anecdotal evidence and a review of statutory provisions,
we decided to examine whether contractual arrangements      between hospices and
nursing homes present vulnerabilities  for inappropriate or excessive Medicare and
Medicaid payments being made to hospice or nursing homes.

From a stratified random sample of 36 hospices, we reviewed the contracts and
financial records of 22 hospices who had patients residing in nursing homes. We did
not attempt to project these findings to the universe of hospices.

FINDINGS

Almost all hospices reviewed pay nursing homes the same or more than what
Medicaid would have paid for nursing home care if the patient had not elected
hospice.

Of the 22 hospice contracts reviewed, 17 had sufficient information to            determine the
hospice payment to the nursing home for room and board. Of the 17                 hospices, 10 pay
100 percent of Medicaid’s daily rate for nursing home care; 5 pay 105             percent, and 1
pays 120 percent of Medicaid’s daily rate. Only one hospice pays less             than 100
percent of Medicaid’s daily nursing home rate.




                                                 i
 The six hospices payingmore than 100 percent of the Medicaid dailyrate for musing
 home care have a higher penxntage of patients in nursinghomes.

 The hospices that paid over 100 percent of the Medicaid daily rate had, on average,
 49 percent of their Medicare patients living in nursing homes. Two of these six
 hospices had close to 100 percent of their patients living in nursing homes. The 11
 remaining hospices had, on average, 24 percent of their Medicare patients living in
 nursing homes.

 Both the hospice and the nursinghome can benefit financiallyby enrollingpatients in
 hospice.

 In one instance we found.additional hospice income generated because Medicaid
 payments to hospice for room and board exceeded what the hospice paid the nursing
 home for room and board. By enrolling nursing home patients hospices also benefit
 financially from increases in the average length of stay and increasing the efficient
 utilization of staff. The advantages for the nursing homes are: increasing
 reimbursement for Medicaid patients, receiving additional staff hours at no additional
 cost, increased patient census and reducing supply and medication costs when the
 hospice provides them.

 Some hospice contracts with nursinghomes contain provisionsthat raise questions
 about inappropriate patient referrals between hospices and nursinghomes.

  Language from contracts in 3 of 22 hospices we reviewed raises the possibility that
 .!some nursing homes and hospices are inappropriately referring patients to each other.
’ Another potential abuse was in the provision of free care in return for patient
  referrals. These arrangements potentially implicate the Medicare-Medicaid ant&
  kickback statute.

 RECOIMMEDIDA~ONS

 Given the above information, and information in our companion report entitled
 “Hospice Patients in Nursing Homes”, we are concerned that some decisions about
 patient care can be potentially infhrenced by financial rather than clinical factors.
 Financial incentives between hospices and nursing homes that induce referrals may
 implicate the Medicare anti-kickback statute. Any contracts with potentially
 troublesome language will be reviewed further by appropriate components of the
 Office of Inspector General. These offices may take additional action as necessary.

 We recommend that the Health Care Financing Administration(HCFA) work with
 the hospice associations to educate the hospice and nursinghome communitiesto help
 them avoid potentiallyfraudulent and abusive activitiesthat might influence decisions
 on patient benefit choices and care.

 In addition, we fecommend that HCFA work with @e States to develop regulations


                                             ii
defining what is included in their nursing home room and board payment.


AGENCY     COMMENTS

We received comments from HCFA and they concur with both of our 

recommendations.       They state that HCFA staff and the regional home health 

intermediaries    are in constant touch with the national and local hospice associations 

and are working to educate them regarding potentially fraudulent and abusive 

practices.   Also, HCFA is currently developing technical regulations for Medicaid 

hospice care that will discuss the issue of what constitutes room and board for nursing 

home patients electing hospice care. 


The HCFA suggested that the OIG issue guidance to the hospice and nursing home 

industries and the Medicare intermediaries    about the problems we identified in our 

report. We agree and plan to do so. In addition we hope to make our report widely 

available for this purpose, both by sending it to the affected industry organizations   and 

intermediaries   and making it available on the internet.    We will discuss our plans with 

HCFA to ensure adequate dissemination       of these results. 


We appreciate the work that HCFA is dong in this area.        The full text of their 

comments can be found in Appendix A. 





                                              ...
                                              111
                         TABLE                             OF                 CONTENTS

                                                                                                                                           PAGE 


EXECUTIVE          SUMMARY 


INTRODUCTION                 . . . . .. . . . . . .            . . . .        . .   . . . .     . .   .......         . .   . . . ......        1


FINDINGS         . . . .. . . . . . . . .. . .. . . . . .                     . .   . . . .     . .   .......       . . .   . .    ......       4




 Hospices      payments        to nursing homes                     . . . . . . . . . . . . .
 . . . . . . . . . . . . . . . . . . . . 4


 Potential     inappropriate           referrals          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . _5 



 Mutual      benefits    to hospices            and nursing              homes           . . . . . . . . . . . . . . . . . . . . . . . . . . . 5



 Troublesome        contractual            language            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7




RECOMMENDATIONS                           ............................................                                                          9


APPENDIX           ...................................................... 


A: Agency Comments                .............................................                                                              A-l 

                             INTRODUCTION


PURPOSE

To examine    the contractual      relationships   between   hospices   and nursing   homes.

BACKGROUND

Hospice   Care

Hospice care is an approach to treatment that recognizes that the impending death of 

an individual may warrant a change in focus from curative to palliative care. Hospice 

helps patients face death while minimizing pain and disruption of normal activities. 

The goal of hospice care is to help terminally ill individuals continue life with minimal 

disruption to normal activities while remaining primarily in a home environment. 


The Medicare hospice benefit was established in 1983. To be eligible for Medicare’s 

hospice benefit, a patient has to be diagnosed with a terminal condition with a life 

expectancy of 6 months or less if the illness runs its normal course. The benefit was 

initially comprised of four levels of care, with three benefit periods and a limit of 210 

days of coverage. 


In 1990, Medicare’s hospice benefit was expanded by adding a fourth benefit period 

that was unlimited in duration.   Before the addition of this period, patients who lived 

beyond 210 days and still required hospice care were provided care by the hospice 

without charge to Medicare or the patient. 


Medicare patients enrolled in the hospice program waive coverage of all medical 

services related to the treatment of their terminal illness. The hospice assumes 

responsibility for all of the patient’s medical needs related to their terminal illness. 

However, Medicare will continue to pay for services furnished by the patient’s non-

hospice attending physician and for the treatment of conditions unrelated to the 

terminal illness. 


Medicaid’s   Hospice   Benefit 


In 1986, Congress allowed States to add a hospice benefit to their State Medicaid 

plans. The original legislation adding the optional hospice benefit specifically 

mentioned that “hospice care may be provided to an individual while such individual is 

a resident of a skilled nursing facility or intermediate   care facility” (P.L. 99-272, 

Sec.9505(a)(2)).  To be eligible for hospice care under Medicaid, patients have to 

meet the same requirements      defined by Medicare.     For nursing home hospice patients 





                                                    3

who are dually entitled to Medicare and Medicaid,      Medicaid    pays an additional
amount to cover the patient’s room and boardi.

Room   and board   can include   the following:

  �  assistance   in activities of daily living, 

  0 socializing activities, 

  �  administration     of medication, 

  �  maintaining     the cleanliness of a resident’s room, 

  �  supervising    and assisting in the use of durable medical   equipment   and prescribed 

        therapies, and
  0 personal care services.

When a dually entitled patient elects hospice, Medicaid pays the hospice for the
patient’s room and board instead of paying the nursing home. The hospice then pays
the nursing home. Initially, Congress only required that States “take into account the
room and board furnished by such facility” in determining     the room and board
payment.     In 1990, Congress required States to pay “at least 95 percent of the rate
that would have been paid by the State....” There is nothing in this section of the law
that explicitly prohibits a hospice from paying all or more than the 95 percent they
receive from the State to a nursing home for room and board.

OIG Studies

Recently, the Office of Inspector General (OIG) conducted a number of different
audits, inspections and investigations examining Medicare’s hospice benefit.
Previously, OIG conducted a number of Hospice audits in Puerto Rico. Other OIG
reports include individual hospice audits as well as “Enhanced Controls are Needed to
Insure Validity of Medicare Hospice Enrollments”     (A-05-96-00023).

This report is a companion to an earlier report entitled “Hospice Patients and Nursing
Homes” (OEI-05-95-00250).    In that report, we found that a lower frequency of service
for nursing home patients, overlap of services, and questionable enrollment in hospice
by nursing home patients suggests that current payment levels for care in nursing
homes may be excessive.


METJAODOLOGY

For our inspection entitled “Hospice Patients and Nursing Homes” (OEI-05-95-00250),
we selected a stratified random sample of 36 hospices, 6 hospices each from


    I In this report “room and board” is used to describe the payments made by hospices to
nursing homes once a patient elects hospice. “Nursing home care” is used to describe those
payments that the State Medicaid agency would have made if the patient did not elect hospice
care.


                                                  2

California, Florida, Illinois, New York and Texas and 6 hospices from the remaining 

States. From these sampled hospices, we requested the hospice’s Medicare census for 

December    1995. We received responses from 31 of the 36 hospices. 


In the patient census, we asked the hospice to identify whether the patient was a 

resident of a nursing home and receiving hospice services and whether the patient was 

entitled to Medicaid.  Twenty-two of the 31 hospices had patients who were residents 

of a nursing home while receiving hospice services. We requested from the hospices 

the complete medical and financial record for these patients.    The complete financial 

record included the written agreement between the hospice and the nursing home and 

copies of receipts and distributions for the patient’s care. In addition, we requested 

from the nursing homes identified as the patient’s residence copies of their complete 

medical and financial records. 


Based on our sample, 51 percent of Medicare hospice patients living in a nursing 

home were also entitled to Medicaid.   For these residents, we requested from the 

State Medicaid agencies, the patient’s complete 1995 claims history. We received 

responses from each State. We also obtained from the Health Care Financing 

Administration claims history for each patient in our sample. Medical review was 

conducted on 208 nursing home hospice patients. 


We reviewed a sample of financial records from each hospice to examine the financial 

relationship between the hospice and the nursing home. A total of 22 hospices were 

reviewed although 3 hospices served no Medicaid patients during our sample period. 

No payments for room and board were made to nursing homes by these three 

hospices.   Despite the absence of Medicaid patients, we reviewed the contract 

language since the contracts contained information   pertaining to room and board 

payments for patients who might be entitled to Medicaid.      National projections 

regarding our findings were not made. 


This inspection was conducted in accordance with Quality Standards    for Inspections   as 

developed by the President’s Council on Integrity and Efficiency. 





                                            3

                                FINDINGS

Almost all hospices reviewed pay nursing homes the same or more than what
Medicaid would have paid for nursing home care if the patient had not elected
hospice.

We reviewed the contracts of 22 hospices of which 17 had sufficient information   to
determine the hospice payment to the nursing home for room and board. A hospice
and a nursing home must have a signed agreement detailing the responsibilities   of
each entity. Of the 17 hospices, 10 pay 100 percent of Medicaid’s daily rate for
nursing home care; 5 hospices pay 105 percent and one hospice pays 120 percent.
Only one hospice appears to pay 95 percent of Medicaid’s daily rate.

In almost all of the contracts we reviewed, hospices pay nursing homes either a flat
daily rate to cover all the patient’s room and board expenses or a rate that covers
room and board and an additional amount to cover supplies and services. Currently,
there are no regulations defining what is included in a room and board payment for
hospice patients.   When the contract states that payment will be a flat rate for room
and board and an additional amount for supplies, the language is typically stated as
follows:

      For Hospice Medicare and Medicaid patients, Hospice willpay the Facility 95% of
      the existing Medicaid Nursing Facility Rate for the patient, plus an additional 5%
      for services purchased by Hospice from the Facility.

According to many of the contracts, the additional 5 percent payment covers routine 

supplies such as incontinent pads, ostomy supplies and other care items generally 

provided by the nursing home. Many of these supplies and items are not ordered by 

the hospice, rather these supplies appear to be part of the routine care provided by 

the nursing home that would normally be reimbursed in the Medicaid daily rate. 


Beyond these routine services and supplies, almost all of the contracts allow nursing 

homes to bill the hospice in addition to the 5 percent for additional supplies and 

services ordered by the hospice when related to the terminal illness. Examples of 

these items include speech therapy, drugs, or other services not normally covered in 

the Medicaid daily rate. 


Almost all the contracts state that the hospice expects the nursing home to provide the 

same level of services and care to hospice patients that would have been provided had 

the patient not elected hospice. A typical example of language found in most 

contracts: 


       The Home shall furnish to the individual who is both a resident of The Home and
       a Hospice patient all of those services which The Home normally would have


                                            4
      provided in the absence of The Hospice program, as provided for in The Home’s
      policies, procedures, protocols, and agreements with the resident and the resident’s
      family.
The six hospices paying more than 100 percent of the Medicaid daily rate for nursing
home care have a higher percentage of patients in nursing homes.

Our analysis indicates that hospices that pay more than 100 percent of the Medicaid
daily rate for nursing home care have a higher percentage     of patients in nursing
homes. The six hospices that paid over 100 percent of the Medicaid daily rate had, on
average, 49 percent of their Medicare patients living in nursing homes. Two of these
six hospices had close to 100 percent of their patients living in nursing homes. The 11
remaining hospices had, on average, 24 percent of their Medicare patients living in
nursing homes.

If the purpose of the additional payment to the nursing home is to induce the referral
of patients, the hospice and nursing home are potentially in violation of 42 U.S.C.
section 1320a-7b(b).    This statute makes it illegal to offer or solicit anything of value
to induce the referral of a patient to a person for furnishing or arranging a service for
which payment may be made under Federal health care programs (including Medicare
or Medicaid).    This statutory prohibition is generally referred to as the Medicare anti-
kickback law.

However, if the nursing home provides legitimate services for hospice patients beyond
those routine services normally provided to nursing home patients and covered by the
daily rate, it would be appropriate for the hospice to reimburse the nursing facility for
those services.

Based on a review of patient’s financial and medical records, it is unclear whether
payments made by hospices for additional services provided by the nursing home
warrant payment in excess of 100 percent of the Medicaid daily rate for nursing home
care. We believe that payments that exceed 100 percent may implicate the Medicare
anti-kickback statute.

Both the hospice and the nursing home can benefit financially by enrolling patients in
hospice.

While a hospice appears to lose money by paying a nursing home more than it
receives from the State, this may not always be the case. In one example, both the
hospice and the nursing home appear to profit from their arrangements.

The following example, illustrated on page 7, shows how at least one hospice and
nursing home benefitted financially from their arrangement.      In this example, the
nursing home’s Medicaid rate was $80.88 per day. The patient’s share of their nursing
home cost was $497.00 per month.     Under current Medicaid regulations, individuals
living in nursing homes must have a post-eligibility determination    made to apply some




                                             5

of their income to the costs of nursing home care.       This patient’s   share also applies 

when a nursing home patient elects hospice care. 


If the patient had not elected hospice care, the total amount that would have been 

paid by Medicaid for nursing home care in December       1995 would have been $2,507.28 

minus the patient’s $497.00 for a total Medicaid reimbursement     of $2,010.28. 

However, the patient did elect hospice care. The hospice and nursing home 

negotiated a rate for room and board of $85.00 per day or 105 percent of Medicaid’s 

per day rate. The total amount that the nursing home billed the hospice was 

$2,635.00. Again the total patient’s share of cost was $497.00 which was deducted 

from the $2,635.00. The total amount paid by the hospice was $2,138.00. This 

exceeded the $2,010.28 that the nursing home would have been paid by Medicaid by 

$127.72. 


The hospice then bills the State Medicaid agency for the patient’s room and board. 

The average daily rate paid by the State for room and board for hospice patients was 

$75.73 per day. This amount is slightly less than 95 percent of the Medicaid daily rate. 

This may represent a partial adjustment for the patient’s share of cost. The total 

amount paid by the State for this patient’s room and board for December     1995 was 

$2,347.60 which exceeded the $2,138.00 paid by the hospice to the nursing home by 

$209.60. In addition to the Medicaid and hospice payments for room and board for 

the hospice patient, Medicare paid the hospice $3,342.00 for hospice care or $107.80 

per day. 


This situation could provide a strong incentive for nursing homes and hospices to 

prematurely     enroll patients who do not meet the criteria for entitlement    to the benefit 

into the hospice program.        Other advantages for hospices include increasing the 

average length-of-stay,     (as noted in hospice industry presentations) and increasing the 

efficient utilization of human resources. 


The advantages for the nursing homes include increasing reimbursement        for Medicaid 

patients, receiving additional staff hours at no additional cost and reducing the supply 

and medication costs when the hospice provides or pays for the supplies.       Another 

potential advantage for the nursing home is increasing the nursing home’s patient 

census by admitting hospice patients who were previously living “at home.” 





                                                6

                                              Nursing Home - A 

                                       Daily Rate for Nursing Home Care 

                                                     !&30.88 


                      Patient - A

 Patient Elects Hospice
                                                         5                 Patient - A (Hypothetical)
                                                                 Patient Does Not Elect Hospice 

 Nursing Home Stay                                               Nursing Home Stay 

 12/l/95 - 12L31P5                                               1211195- 12l31i95 


 Nursing Home Bills Hospice at 105 % of                          Nursing home bills Medicaid at its daily rate
 Medicaid Daily Rate
 Service                      Charge                             Service                    Charge



                                                         4
 31 Days @ $85.00                            $2,635.00	          31 days @ $80.88                       $2,507.28
 per day                                                         per day
 Patient’s Share of                           -$497.00 	         Patient’s Share of                     -$497.00
 cost                                                            cost

 Total                                       $2,138.00           Total                                  $2,010.28

 Hospice Paid                                $2,138.00           Medicaid Paid                          $2,010.28
 Nursing Home                                            t       Nursing Home
                                                         1
                          ,
                              Difference between hospice payment and                                     $127.72
                              Medicaid payment

 Hospice bills Medicaid for room and board                   I                          I
 Service                      Charge

 31 Days @ $75.73                            $2,347.60
 per day

 Medicaid paid                               $2,347.60
 hospice

 Hospice paid nursing                        $2,138.00
 home

 Difference between                            $209.60
 hospice payment and
 Medicaid payment

 Medicare payment to                         $3,342.00
 Hospice for Hospice
 Care



Some hospice contracts with nursing homes contain provisions that raise questions
about inappropriate patient referrals between hospices and nursing homes.

Language in three hospice nursing home contracts raises the possibility that nursing
homes and hospices are inappropriately    referring patients to each other, potentially
violating the Medicare anti-kickback statute. This statute makes it illegal to offer or


                                                                 7
solicit anything of value to induce the referral of a patient to a person for furnishing
or arranging a service for which payment may be made under Federal health care
programs (including Medicare or Medicaid).       Below is an example of language
pertaining to patient referrals found in a hospice’s contract with a nursing home.

       The Home agrees to exert its best efforts to promote the use of Hospice home care
       services by directing the personnel of The Home to refer all terminally ill patients,
       subject to the informed consent of the patient and the approval of the attending, to
       The Hospice.

In another contract from the same hospice but with a different nursing home the
language regarding referral asks that the nursing home promote the concept of
hospice to patients who may require hospice care.

In another   hospice’s   contract,   the hospice   and nursing home   agree to

       formulate an assessment system within each of their structures to funnel
       patients to the services of the other.

Another potential abuse of the current system is providing free care in return for
patient referrals.   One hospice’s contract raises questions both about the
appropriateness    of hospice care as well as Medicare’s Skilled Nursing Facility benefit.
The contract states that:

       For residents who are eligible for Medicare skilled nursing home room and board
       reimbursement, Hospice willprovide its core services without charge until nursing
       home Medicare reimbursable days expire before the patient elects the Medicare
       Hospice Benefit.

This language, along with examples of patients moving between the hospice benefit
and regular Medicare benefits, raises questions as to whether the hospices and nursing
homes are placing patients for reimbursement    reasons rather than patient needs.




                                                   8

                   RECOMMENDATIONS

Given the above information,    and information in our companion report entitled
“Hospice Patients in Nursing Homes”, we are concerned that some decisions about
patient care can be potentially influenced by financial rather than clinical factors.
Financial incentives between hospices and nursing homes that induce referrals may
implicate the Medicare anti-kickback statute.

Any contracts with potentially troublesome     language will be reviewed further by
appropriate  components    of the Office of Inspector General.    These offices may take
additional action as necessary.

We recommend that the Health Care Financing Administration (HCFA) work with
the hospice associations to educate the hospice and nursing home communities to help
them avoid potentially fraudulent and abusive activities that might influence decisions
on patient benefit choices and care.

In addition, we recommend that HCFA work with the States to develop regulations
defining what is included in their nursing home room and board payment.

AGENCY     COMMENTS

We received comments from HCFA and they concur with both of our 

recommendations.       They state that HCFA staff and the regional home health 

intermediaries    are in constant touch with the national and local hospice associations 

and are working to educate them regarding potentially fraudulent and abusive 

practices.   Also, HCFA is currently developing technical regulations for Medicaid 

hospice care that will discuss the issue of what constitutes room and board for nursing 

home patients electing hospice care. 


The HCFA suggested that the OIG issue guidance to the hospice and nursing home 

industries and the Medicare intermediaries    about the problems we identified in our 

report. In addition we hope to make our report widely available for this purpose, 

both by sending it to the affected industry organizations  and intermediaries and 

making it available on the internet.   We will discuss our plans with HCFA to ensure 

adequate dissemination   of these results. 


We appreciate the work that HCFA is dong in this area.       The full text of their 

comments can be found in Appendix A. 





                                             9

APPENDIX          A 





 AGENCY   COMMENTS 

 DATE:

TO: 	         June Gibbs Brown
              Inspector General

FROM:         Nancy-Am Min DePark
                                   wm
              Deputy Administrator

SUBJECT: 	 Office of Inspector General (0%) Draft Report: “Hospice and Nursing
           Home Contractual Relationships,” (OEI-05-95-0025 1)

We reviewed the above-referenced report that examkz      contractual relationships between
hospices and nursing homes.

Hospice care is an approach to treatment that recognizes the impending death of an
individual may w-t       a change in focus from curative to palliative care. Hospice helps
patients face death while minimizing pain and disruption of normal activities. The
Medicare hospice benefit was established in 1983. In 1986, Congress allowed states to
add a hospice benefit to their state Medicaid plans.

For nursing home patients who are dually entitled to Medicare and Medicaid and who
choose the hospice benefit, Medicaid pays the hospice for the patient’s room and board
(no less than 95 percent of the Medicaid daily rate), and Medicare pays the hospice for
the hospice benefit. The hospice then pays the nursing home for daily care and,
depending on the arrangement made between the hospice and the nursing home, for other
services as well.

Based on evaluations, audits, anecdotal evidence, and a review of statutory provisions,
OlG decided to examine whether contractual arrangements between hospices and nursing
homes present vulnerabilities for inappropriate or excessive Medicare and Medicaid
payments being made to hospices or nursing homes.

The Health Care Financing Administration (HCFA) concurs with all of OIG’s
recommendations. Our detailed comments are as follows:

OIG Recommendation 1

HCFA should work with the hospice associatiotls to educate the hospice and nursing
home communities to help them avoid potentially fraudulent and abusive activities that
might influence decisions on patient benefit choices and care.




                                           A-2 

 HCFA Response

 We concur. It is important to note that both I-iCFA staff and our contractors, the regional
 home health intermediaries (RHHIs), are in regular contact with the national and local
 hospice associations, and are working to educate them regarding poientially fraudulent
 and abusive activities. The RI-MIShave been instructed to conduct educational seminars
for providers, physicians, and/or consumers when there is a general misunderstanding of
coverage, widespread overutilization in areas, or issues all parties may not be aware of
that might impact utilization of servxes. We will encourage the RHHIs to re-emphasize
this aspect of potentially fraudulent and abusive actii-ities in their continuing educational
efforts.

OIGRccommendationZ

HCFA should work with the states to develop regulations defining what is included in
their nursing home room and board payment.

HCFA ResDonse

We concur. HCFA is currently developing technical regulations for Medicaid hospice
care. It should be noted that the Omnibus Budget Reconciliation Act of 1989 (OBRA
 1989) included a definition for nursing home room and board. However, before this
provision could be incorporated into the Medicaid regulations, rhe statute was repealed
with OBRA 1990. As a technical regulation, we are implementing the requirements of
section 1905(o) of the Social Security Act. In the preamble, there will be a discussion of
nursing home room anA board for those individuals =ho elected hospice care. We expect
this information will clar~fj~some of the confusion surrounding this issue and may negate
the need for a separate regulation. However, we will include in the preamble a reqt st
for comment from the public on the need to develop separate regulations for room and
board.

Additional Comments

We agree the hospice associations should be informed of situations considered to be
potentially fraudulent and abusive. It would be helpful if OIG prepared a document/alert
that outlines potential anti-kickback violations so that HCFA could work with the
associations and the RHHIs.




                                            A-3 

